         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Quick Reaction Report




       Ineligible Federal Funds Drawn on
       EPA Grant No. XP98284701 Awarded
       to the City of Middletown, New York

       Report No. 2007-2-00039

       September 25, 2007
Report Contributors:	            Robert Adachi
                                 Richard Howard
                                 Janet Kasper




Abbreviations

EPA          U.S. Environmental Protection Agency
Grantee      City of Middletown, New York
OIG          Office of Inspector General
OMB          Office of Management and Budget
Grant        Grant No. XP98284701
                       U.S. Environmental Protection Agency 	                                         2007-2-00039
                                                                                                 September 25, 2007
                       Office of Inspector General


                       At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review            Ineligible Federal Funds Drawn on
The U.S. Environmental
                                  EPA Grant No. XP98284701 Awarded to the
Protection Agency (EPA)           City of Middletown, New York
Office of Inspector General
(OIG) conducted a review of        What We Found
earmarked grants known as
Special Appropriation Act         The City of Middletown (grantee) claimed costs that were incurred prior to the
Projects issued to local and      timeframes provided for in Office of Management and Budget Circular A-87 and
tribal Governments. The City      the Special Appropriation Act Projects guidance. These guidelines indicate that
of Middletown, New York,          costs are eligible as of the beginning of the fiscal year when funds are
was selected for review.          appropriated. The grant funds were appropriated in Fiscal Year 2003; therefore,
                                  preaward costs incurred after October 1, 2002, were eligible for reimbursement.
Background                        However, the grantee incurred the entire $853,002 in total project costs prior to
                                  October 1, 2002. Also, the grant conditions only approved preaward costs 90 days
The City of Middletown            prior to the grant award. The costs claimed by the grantee were incurred
received an EPA Special           approximately 15 months prior to the grant award date. As a result, all costs
Appropriation Act Project         claimed under the EPA grant are ineligible for Federal reimbursement and grants
grant, XP98284701. The            funds of $433,700 must be repaid.
purpose of the grant was to
provide Federal assistance of
$433,700 for the procurement       What We Recommend
of equipment for the grantee’s
drinking water treatment plant.   We recommend that the EPA Region 2 Regional Administrator require the City of
The City of Middletown was        Middletown to repay the $433,700 in Federal funds drawn.
required to provide local
matching funds equal to
49 percent of the EPA-
awarded funds.




For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/
20070925-2007-2-00039.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                        September 25, 2007

MEMORANDUM

SUBJECT:	 Ineligible Federal Funds Drawn on EPA Grant No. XP98284701
          Awarded to the City of Middletown, New York
          Report No. 2007-2-00039


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Alan J. Steinberg
               Regional Administrator
               EPA Region 2


This report contains a time-critical issue the Office of Inspector General (OIG) identified and
recommends recovery of Federal funds drawn down by the recipient. This report represents the
opinion of the OIG and does not necessarily represent the final position of the U.S.
Environmental Protection Agency (EPA). EPA managers will make final determinations on
matters in this report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $9,383.

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide us
your proposed management decision for resolution of the finding contained in this report before
any formal resolution can be completed with the recipient. Your proposed decision is due in
120 days, or on January 23, 2008. To expedite the resolution process, please email an electronic
version of your proposed management decision to kasper.janet@epa.gov.

We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig. If you have any questions, please contact Janet Kasper,
Director, Assistance Agreement Audits, at (312) 886-3059 or at the email address above.
Purpose
During our review of Special Appropriation Act Projects, the following condition came to our
attention that we believe requires immediate attention. The City of Middletown, New York
(grantee) submitted drawdown requests to the U.S. Environmental Protection Agency (EPA) for
preaward costs of $853,002 that were ineligible for reimbursement. The costs were ineligible
under Office of Management and Budget (OMB) Circular A-87, EPA’s Fiscal Year 2003 Special
Appropriation Act Projects guidance, and the grant terms and conditions. As a result, the entire
grant amount of $433,700 claimed by the grantee must be repaid to EPA.

Background
Grant No. XP98284701 (grant) was awarded on September 30, 2003. The purpose of the grant
was to provide Federal assistance of $433,700 for the procurement of equipment for a
prefabricated, complete “package” treatment plant, which was incorporated into the grantee’s
existing drinking water treatment plant. The $433,700 represents EPA’s contribution of up to
50.84 percent of the eligible project costs, and is limited by the amount of the congressional
appropriation. The grantee was responsible for matching, at a minimum, 49.16 percent of the
eligible project costs. Total project costs under the grant were $853,002, which represent the
equipment purchased for the treatment plant. The budget and project period for the grant was
August 1, 2003, to August 1, 2004. Administrative Condition No. 11 of the grant authorized the
grantee to charge preaward costs incurred up to 90 days prior to award date, provided that the
costs were included in the approved grant application.

Scope and Methodology
We performed our audit in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States, with the exception of gaining a complete
understanding of internal controls as required under Section 7.11 and information control
systems as required under Section 7.59. We did not obtain a complete understanding of the
internal control system since the limited nature of our review focused on the source documents
that support costs claimed under the grant. We also did not test the recipient’s grant drawdown
process or the recipient’s process for entering information into its accounting system. We did
not obtain an understanding of information control systems since the review of general and
application controls was not relevant to the assignment objectives. We did not make site visits to
the grantee; instead, the results were based on information in the EPA project files and
interviews with EPA and grantee personnel. We conducted our field work between July 19,
2007, and August 13, 2007.

Finding
The grantee did not incur its preaward grant costs during the period required by OMB Circular
A-87 and the Special Appropriation Act Projects guidance. These guidelines indicate that costs
are eligible as of the beginning of the fiscal year when funds are appropriated. The grant funds
were appropriated in Fiscal Year 2003, so preaward costs incurred after October 1, 2002, could
be eligible for reimbursement. However, the grantee incurred the entire $853,002 in total project


                                                1

costs prior to October 1, 2002. Also, the grant conditions only approved preaward costs 90 days
prior to the grant award. The costs claimed by the grantee were incurred approximately
15 months prior to the grant award date. Therefore, all costs claimed under the EPA grant are
ineligible for Federal reimbursement.

The Award of Grants and Cooperative Agreements for the Special Projects and Programs
Authorized by the Agency’s FY 2003 Appropriations Act, dated July 22, 2003, and issued by
James Hanlon, Director – Office of Wastewater Management, states:

        Since 1995, EPA Headquarters (in accordance with established OMB and Agency
        procedures) have approved pre-award costs for more than 50 special
        Appropriations Act projects in the following two situations:

                 The pre-award costs were incurred after the start of the fiscal year for
                 which the funds were appropriated but before grant award; and/or,

                 The pre-award costs were for facilities planning or design work
                 associated with the construction portion of the project for which the grant
                 was awarded.

        Accordingly, effective April 1, 2000, the Regions have the authority to approve
        pre-award costs for the two situations described above. Any approval, of course,
        is contingent on the Regional Office determination that the pre-award costs in
        question are in conformance with the applicable Federal laws, regulations and
        executive orders that govern EPA grant awards and are allowable, reasonable
        and allocable to the project.

The following table shows the sequence of costs incurred and claimed by the grantee under the
grant for treatment plant equipment:

                                Table 1: Schedule of Grantee Transactions
          Date                Amount                                       Action
  June 3, 2002                $ 75,000       According to two vendor invoices, date treatment system
                               778,002       equipment ordered.
  June 7, 2002                  75,000       Purchase order issued for equipment ordered on June 3, 2002.
  June 21, 2002                778,002       Purchase order issued for equipment ordered on June 3, 2002.
  July 18, 2002                778,002       Both purchase orders recorded in grantee’s electronic
                                75,000       accounting system.
  July 23, 2002                 75,000       Invoice issued to grantee for equipment.
  August 12, 2002               75,000       Check issued to vendor for equipment.
  September 30, 2002           778,002       Invoice issued for equipment.
  October 28, 2002             778,002       Check issued to vendor for equipment.
  September 30, 2003           433,700       Special Appropriation Act Projects grant awarded to Middletown
                                             for reimbursement of equipment costs incurred in Fiscal Year
                                             2003.
  December 11, 2003             390,330      First drawdown of grant funds.
  April 8, 2004                  43,370      Final drawdown of 10 percent of withheld grant funds.
 Source: Region 2 Middletown project file.



                                                       2
The City Treasurer stated that the accrual basis of accounting is used for financial reporting
purposes. As defined by the Government Accounting Standards Board Section 1600.102, under
the accrual basis of accounting, most transactions are recognized when they occur, regardless of
when cash is received or disbursed. The grantee officials stated that they would have recognized
the equipment orders as accounts payable as of the order date of June 3, 2002. In order for these
costs to be eligible under the Fiscal Year 2003 appropriation, the costs had to be incurred after
October 1, 2002. However, the entire amount was incurred prior to this date. The grantee
ordered its equipment on June 3, 2002. It recorded the purchase orders for the equipment in its
accounting system on July 18, 2002. Grantee officials informed us that they could not explain
why there was a delay between the order date and the date the costs were recorded.

Administrative Condition 11 of the grant authorized the grantee to charge preaward costs
incurred up to 90 days prior to award date, provided that the costs were included in the approved
grant application. The grant was awarded on September 30, 2003. In order for preaward costs to
be eligible for reimbursement, they had to be incurred between June 30, 2003, and September 30,
2003. Therefore, based on the criteria cited, the grantee claimed preaward costs of $853,002 that
were contrary to OMB Circular A-87, EPA guidance, and the terms and conditions of its grant
award. As a result, the grantee must repay the entire grant amount of $433,700 to EPA.

Recommendation
 1. 	 We recommend that the Regional Administrator, EPA Region 2, require the City of 

      Middletown, New York, to repay the $433,700 in Federal funds drawn. 


Auditee’s Comments
We held an exit conference with grantee representatives on September 5, 2007. The grantee
representatives stated that they did not dispute the factual accuracy of the report, and would work
with their congressional representatives and Region 2 officials to resolve the costs questioned.

OIG Response
Our position remains unchanged since the grantee did not dispute the facts presented in this
report.




                                                3

                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                 Planned
Rec.        Page                                                                                                Completion   Claimed    Agreed To
No.          No.                        Subject                         Status1           Action Official          Date      Amount      Amount

 1            3    Require the City of Middletown, New York, to repay                 Regional Administrator,                  $434
                   the $433,700 in Federal funds drawn.                                   EPA Region 2




     1   O = recommendation is open with agreed-to corrective actions pending.
         C = recommendation is closed with all agreed-to actions completed.
         U = recommendation is undecided with resolution efforts in progress.




                                                                                 4

                                                                               Appendix A

                                    Distribution

Regional Administrator, Region 2
Director, Office of Wastewater Management, Office of Water
Director, Office of Wastewater Management - Municipal Services Division, Office of Water
Director, Office of Grants and Debarment
Director, Grants and Interagency Agreements Management Division
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Region 2 Audit Followup Coordinator
Region 2 Public Affairs Office
Acting Inspector General




                                             5

